No. 20-1046
In the

Supreme Court of the United States
__________________
MARIN HOUSING AUTHORITY,
Petitioner,
v.
KERRIE REILLY,
Respondent.
__________________
On Petition for Writ of Certiorari to the
California Supreme Court

__________________
BRIEF OF AMICUS CURIAE SCOTT COUNTY
COMMUNITY DEVELOPMENT AGENCY
IN SUPPORT OF THE PETITIONER
__________________
JOHN M. REEVES
Counsel of Record
REEVES LAW LLC
3703 Watson Road
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com
Counsel for Amicus Curiae

March 3, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF THE ARGUMENT . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. The decision below is in direct conflict with both
the Minnesota Supreme Court and the Fifth
Circuit, despite the California Supreme Court’s
claim to the contrary. . . . . . . . . . . . . . . . . . . . . . . 3
A. The California Supreme Court’s attempt to
distinguish Anthony and Ali, and thus avoid
a split, is unconvincing . . . . . . . . . . . . . . . . . . 4
B. By staying the issuance of the remittitur
pending the disposition of the petition for a
writ of certiorari, the California Supreme
Court has implicitly recognized its opinion
creates a split on a major issue requiring this
Court’s review . . . . . . . . . . . . . . . . . . . . . . . . . 9
II. By departing from the plain and ordinary
meaning of the word “cost,” the California
Supreme Court has substituted its own policy
preferences for those of Congress and HUD . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF AUTHORITIES
CASES
Anthony v. Poteet Hous. Auth.,
306 F. App’x 98 (5th Cir. 2009) . . . . . . . . . passim
Arlington Central School Dist. v. Murphy,
548 U.S. 291 (2006) . . . . . . . . . . . . . . . . . . . . . . . 2
Christensen v. Harris Cty.,
529 U.S. 576 (2000). . . . . . . . . . . . . . . . . . . . . . . . 2
In re Ali,
938 N.W.2d 835 (Minn. 2020) . . . . . . . . . . passim
Reilly v. Marin Hous. Auth.,
232 Cal. Rptr. 3d 789 (Cal. Ct. App. 2018) . . . . . 8
TransAm Trucking, Inc. v. ARB,
833 F.3d 1206 (10th Cir. 2016). . . . . . . . . . . . . . 10
STATUTES
24 C.F.R. §5.609(c)(16) . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. §1434f. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Cal. Rules of Court 8.540(a)(c)(2) . . . . . . . . . . . . . . . 9
Cal. Rules of Court 8.540(e) . . . . . . . . . . . . . . . . . . . . 9
Fed. R. App. P. 41(d) . . . . . . . . . . . . . . . . . . . . . . . . . 9
OTHER AUTHORITIES
Merriam-Webster’s Collegiate Dictionary 262
(10th ed. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTEREST OF AMICUS CURIAE1
Scott County Community Development Agency
(“Scott County CDA”) is a government agency that
works to provide affordable rental housing for low-andmoderate income families in Scott County, Minnesota.
Its duties include determining eligibility for
participation in Section 8 of the United States Housing
Act of 1937, 42 U.S.C. §1434f, and its accompanying
regulations. In other words, Scott County CDA
performs the same functions as Petitioner Marin
Housing Authority. This includes implementing the
Department of Housing and Urban Development
(“HUD”) regulation at issue here, 24 C.F.R.
§5.609(c)(16).
In addition, Scott County CDA was the respondent
in one of the two cases that form the split with
California Supreme Court’s opinion below, and was
fortunate enough to present its arguments before a
state court of last resort that interpreted §5.609(c)(16)
according to its plain and ordinary meaning. See In re
Ali, 938 N.W.2d 835 (Minn. 2020). Unlike the
California Supreme Court, the Minnesota Supreme
Court recognized that the term “cost” as used in
§5.609(c)(16) is limited to specific monetary charges
incurred for services, and does not include the more

1

Amicus provided timely notice to both parties of its intent to file
this brief, and both parties provided amicus with written consent
to file this brief. No counsel for either party authored this brief in
whole or in part, nor did counsel for either party make any
monetary contribution intended to fund the preparation or
submission of this brief.

2
nebulous concept of “lost opportunity costs.” See Ali,
938 N.W.2d at 838-40.
Scott County CDA thus has practically the same
interest in the outcome of this lawsuit as Petitioner
Marin Housing Authority. This brief elaborates on the
split that the decision below has created between the
California Supreme Court on the one side, and the
Minnesota Supreme Court and the Fifth Circuit on the
other side, over the meaning of “cost” in §5.609(c)(16).
See Ali, 938 N.W.2d at 838-40; Anthony v. Poteet Hous.
Auth., 306 F. App’x 98 (5th Cir. 2009).
INTRODUCTION AND SUMMARY OF THE ARGUMENT
This Court has frequently recognized the need to
resolve lower court splits over the proper interpretation
of statutes and regulations where the proper allocation
of money is at issue. See, e.g., Arlington Central School
Dist. v. Murphy, 548 U.S. 291, 295 (2006) (“We granted
certiorari…to resolve the conflict among the Circuits
with respect to whether Congress authorized the
compensation of expert fees to prevailing parents….”);
Christensen v. Harris Cty., 529 U.S. 576, 581-82 (2000)
(granting certiorari to resolve split over how employers
could implement compensatory time policies under the
Fair Labor Standards Act). Here, the California
Supreme Court has created a direct split between itself
and two other courts—the Minnesota Supreme Court
and the Fifth Circuit—over the proper meaning of the
term “costs” in §5.609(c)(16). Such a disparate
treatment of the term cannot stand, given the amount
of money at issue, and this Court’s review is critically
needed to resolve the matter.

3
ARGUMENT
I. The decision below is in direct conflict with
both the Minnesota Supreme Court and the
Fifth Circuit, despite the California Supreme
Court’s claim to the contrary.
The California Supreme Court tried to have it both
ways in its decision below—on the one hand, it
explicitly acknowledged that its interpretation of “cost”
as used in §5.609(c)(12) diverged from how both the
Minnesota Supreme Court and the Fifth Circuit
interpreted that term. (App.19) (“[A]s with Anthony, we
disagree with the Ali court’s narrow interpretation of
‘cost’….”). On the other hand, it sought to distinguish
both Anthony and Ali from the facts of this case on the
ground that in the two former cases the state agencies
distributed the funds in question in a manner different
from how Marin Housing Authority distributed the
funds here. (App.18-21). But this is a distinction
without a difference: the manner in which the state
agencies distributed the funds played no role in the
Minnesota Supreme Court and the Fifth Circuit
concluding that the term “cost,” as used in
§5.609(c)(16), is limited to actual monetary expenses
that have been or will be incurred in caring for a
developmentally-disabled family member at home, and
does not include non-monetary opportunity costs. Those
courts based their conclusions on an analysis of the
regulation’s text, and not on the particular facts before
them. No matter how much the California Supreme
Court tried to avoid it, there now exists a clear split
regarding the proper interpretation of “cost” under
§5.609(c)(16).

4
A. The California Supreme Court’s attempt to
distinguish Anthony and Ali, and thus avoid a
split, is unconvincing.
The California Supreme Court sought to downplay
the similarities between this case, the Fifth Circuit’s
decision in Anthony, and the Minnesota Supreme
Court’s decision in Ali. It claimed that the dissenting
opinion “overstated” the importance of these cases.
(App.18). But the majority opinion gave no serious
explanation about how either of those cases are
materially different from the present one, other than
proffering conclusory statements to that effect with no
underlying support.
The appellant in Anthony worked as a personal-care
attendant for several different private health care
organizations. Anthony, 306 Fed. App’x at 99-100. As
such, she received wages directly from the private
health organizations themselves. See id. The appellant
also had a developmentally-disabled son who resided
with her and qualified for a Texas program that
appropriated both state and federal funds to private,
for-profit health organizations to provide in-home care
services for developmentally-disabled individuals. See
id. The appellant worked for two private health
organizations that received funding from this Texas
program. See id. Her job as a personal-care attendant
did not require that she be assigned to look after her
son. Id. at 100. Nevertheless, she was, in fact, assigned
to provide at-home, personal care services to her son
under the Texas program. Id.
The appellant argued that the wages she received
from the private health organizations to provide in-

5
home services to her developmentally-disabled son fell
within §5.609(c)(16)’s exclusion of income. Anthony, 306
Fed. App’x at 100-01. In ruling on the matter, the Fifth
Circuit initially noted that the “regulation does not
specifically address whether funds paid by a state to a
family member after passing through a private entity
are excluded from the term ‘annual income.’” Id. It also
observed that “all state-funded in-home attendant care
services in Texas are provided by private
intermediaries, and Texas does not provide any
amounts directly to families to offset costs incurred to
keep a disabled family member at home.” Id. As a
result, the Fifth Circuit could not “determine how
allowing pass-through funds would affect the
regulation’s central purposes.” Id.
Despite this uncertainty, the Fifth Circuit
proceeded to rule on the merits of the case under the
assumption “that the regulation allows for passthrough funds to be excluded from annual income….”
Id. Working on this assumption, the Fifth Circuit
concluded that the term “costs” was limited to actual
monetary expenses, as opposed to lost opportunity
costs. Id. at 101-02. Consequently, the appellant’s
providing at-home care services to her son as part of
her job did not incur any out-of-pocket costs for the
State to reimburse. Id. at 102. The Fifth Circuit thus
read “costs” to include only actual expenses incurred,
not lost opportunity costs. Id.
The California Supreme Court made only a
perfunctory attempt to distinguish Anthony from the
present matter. It noted that the Texas program,
unlike the California program here, did not provide any

6
payments directly to families to offset the cost of
services; rather, the Texas program sent all payments
exclusively to private intermediaries. (App.19). But this
was irrelevant to the Fifth Circuit’s analysis—that
court explicitly noted that its opinion worked on the
assumption that “pass-through” funding paid from the
State to private intermediaries constituted “[a]mounts
paid by a State agency to a family” under §5.609(c)(16).
Anthony, 306 Fed. App’x at 101. Having proceeded
under this assumption, the only issue remaining for it
to decide was whether the term “costs” encompassed
matters beyond monetary expenses; the Fifth Circuit
concluded it did not. Id. In the eyes of the Fifth Circuit,
the payments the appellant received in that case were
indistinguishable from those Respondent Kerrie Reilly
received here. Despite the California Supreme Court’s
efforts to the contrary, it is impossible to distinguish its
holding below from the Fifth Circuit’s holding in
Anthony in any meaningful way; the two opinions are
directly at odds with each other over the meaning of a
regulation involving the allocation of millions of
dollars.
The opinion below fares no better in its attempt to
distinguish this matter from the Minnesota Supreme
Court’s decision in Ali. There, the appellant
participated in a Section 8 housing program. Ali, 938
N.W.2d at 837. She also had a developmentallydisabled son, and qualified for Minnesota’s
Developmental Disability Waiver program. Id. As part
of this program, county social workers created and
approved a budget to cover the cost of services and
equipment needed to keep the appellant’s son living at
home. Id. The appellant elected, similar to Reilly here,

7
“to allocate a portion of the budget to herself as a paid
parent to provide to her son some of the necessary
services,” id., as opposed to using the money to pay for
a third party to look after her son. This required her “to
file a timesheet tracking her weekly hours and to pay
income tax.” Id.
Based on its reading of §5.609(c)(16), Scott County
CDA concluded that while most of the benefits the
appellant received to care for her developmentallydisabled son were excluded from her income for
purposes of Section 8, “the amounts she paid
herself…were not.” Id. This was because those amounts
“were not used to ‘offset’ any ‘cost’ to [the appellant], as
[the appellant] did not actually incur an out-of-pocket
expense.” Id. at 838.
The Minnesota Supreme Court agreed with Scott
County CDA’s interpretation of “cost” under
§5.609(c)(16). It noted that “cost” is primarily defined
as “‘the amount or equivalent paid or charged for
something: PRICE.’” Ali, 938 N.W.2d at 839 (quoting
Merriam-Webster’s Collegiate Dictionary 262 (10th ed.
2001)). While acknowledging that “cost” also has a
secondary, non-monetary definition—that is, “cost” can
also mean the amount of effort or sacrifice involved in
carrying out a task—the court concluded that this
meaning did not make sense when reading §5.609 as a
whole. Ali, 938 N.W.2d at 839. Section 5.609(c)(16) does
not exclude merely the “cost of services” from
income—it excludes the cost of services and equipment
from income. Ali, 938 N.W.2d at 839. “The ‘and’
between the words services and equipment suggests
that the same measurement is used for each.” Id. Nor

8
did it stop there—the Minnesota Supreme Court
explicitly referenced, in support of this conclusion, the
Fifth Circuit’s decision in Anthony and the decision of
the California Court of Appeal in this matter prior to
the California Supreme Court overruling it. Ali, 938
N.W.2d at 840. The California Court of Appeal
“concluded that the word ‘cost’ means price—which is
the ‘more common and concrete meaning.’” Id. (quoting
Reilly v. Marin Hous. Auth., 232 Cal. Rptr. 3d 789, 796
(Cal. Ct. App. 2018) (reprinted in the Appendix at
App.81)).
The California Supreme Court limited itself to a
single sentence in its argument that the current matter
is distinguishable from Ali. “As with the Texas
program, the Minnesota program…is structured
differently from the [California] program in a way that
makes Ali distinguishable.” (App.21). The court gave no
further explanation as to how the Minnesota program
was structured differently from the California program,
or why this made any material difference to
interpreting the meaning of “cost” in §5.609(c)(16). If
the California Supreme Court meant that the
Minnesota program, unlike the California program,
gave the recipient of the funds the discretion over how
to budget and spend the funds, this is irrelevant for
purposes of deciding whether “costs” is limited to
monetary expenditures or includes something more.
What’s more, there does not appear to be much of a
substantive difference between the Minnesota program
and the California program in this regard: had she so
wished, Reilly could have used the state funds to pay
for a third party to provide at-home personal services
to her son instead of looking after her son herself. The

9
California Supreme Court’s attempt to distinguish Ali
from the present matter falls flat.
B. By staying the issuance of the remittitur pending
the disposition of the petition for a writ of
certiorari, the California Supreme Court has
implicitly recognized its opinion creates a split
on a major issue requiring this court’s review.
Approximately two weeks after the California
Supreme Court issued its opinion below reversing the
Court of Appeal, Marin Housing Authority asked the
court to stay the issuance of the remittitur2 pending the
filing and disposition of a petition for a writ of
certiorari in this Court. (Motion to stay, filed Sept. 15,
2020). Over Reilly’s objections, the court granted the
motion and ordered a stay of the remittitur pending the
filing and disposition of Marin Housing Authority’s
petition in this Court. (Order of Sept. 30, 2020).
The California Supreme Court may stay the
issuance of the remittitur “for good cause.” Cal. Rules
of Court 8.540(a)(c)(2). There does not appear to be any
caselaw elaborating on what amounts to “good cause”
in this context. Nevertheless, the California Supreme
Court’s willingness to delay the execution of its
judgment strongly indicates that, despite its attempts
to distinguish this matter from Anthony and Ali, a
clear split now exists between it, the Fifth Circuit, and
the Minnesota Supreme Court on the matter that
warrants this Court’s review.
2

The remittitur in California state appellate practice is equivalent
to the mandate in federal appellate practice. Compare Cal. Rules
of Court 8.540(e) with Fed. R. App. P. 41(d).

10
II. By departing from the plain and ordinary
meaning of the word “cost,” the California
Supreme Court has substituted its own policy
preferences for those of Congress and HUD.
As the dissenting opinion recognized, §5.609(c)(16)’s
plain language serves the purpose of “ensur[ing] that
the acceptance of state financial help by families who
keep a developmentally disabled family member at
home does not place the families at a disadvantage in
receiving Section 8 housing assistance….” (App.55).
But the majority opinion substitutes a different policy
for this—instead of furthering §5.609(c)(16)’s purpose
of placing such families on the same level as other
families, it “provide[s] affirmative advantages to
families with a developmentally disabled member at
home.” (App.56) (emphasis in original). This utilization
of the judicial power to compel a policy not mandated
under the regulation’s plain language sets a dangerous
precedent that, if left uncorrected, provides fodder for
courts of other jurisdictions to do the same thing and
substitute their own views for the plain language of
statutes and regulations. Cf. TransAm Trucking, Inc.
v. ARB, 833 F.3d 1206, 1217 (10th Cir. 2016) (Gorsuch,
J., dissenting) (“[I]t is our obligation to enforce the
terms of [a law] as expressed in the law itself, not to
use the law as a sort of springboard to combat all
perceived evils lurking in the neighborhood….[I]t
is…work enough for the day to apply the law Congress
did pass, not to imagine and enforce one it might have
but didn’t.”). This is all the more reason for this Court
to review the case on the merits.

11
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
JOHN M. REEVES
Counsel of Record
REEVES LAW LLC
3703 Watson Road
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com
Counsel for Amicus Curiae

